U.S. Department of Labor                   Office of Inspector General
                                           Washington, DC. 20210




      June 19, 2006


      MEMORANDUM FOR THE DEPUTY SECRETARY




      FROM:                     ELLIOT P. LEWIS
                                 Assistant Inspector General
                                   for Audit

      SUBJECT:                  ALERT REPORT: ETA’s Contract with The Creative Eye
                                d/b/a TCE Digital Solutions is in Violation of SBA
                                Section 8 (a) Program Requirements
                                Report Number: 05-06-005-03-390

      This memorandum transmits the initial results of our performance audit of the
      Employment and Training Administration, Division of Contract Services’ (ETA’s)
      procurement action with The Creative Eye d/b/a TCE Digital Solutions (TCE) of Camp
      Springs, Maryland, and recommends immediate corrective actions. We are addressing
      this memorandum to you because, although the contract was awarded by ETA, it also
      involves Job Corps.

      We found three violations of either SBA regulations or the contract provisions:
      (1) The current value of the TCE contract exceeds the $3 million limit for the life of
      the contract allowed in the U.S. Small Business Administration (SBA) regulations;
      (2) contrary to the regulations, TCE has not “performed 50 percent of the cost of the
      contract incurred for personnel with its own employees;” and (3) although the
      solicitation package that ETA submitted, and SBA approved, was limited to tasks
      only in the Job Corps program, the Statement of Work in the executed contract
      with TCE provided for general tasks, which allowed ETA to issue task orders for
      programs and functions throughout ETA.

      We strongly recommend that you take immediate action to ensure all pending
      contract modifications to TCE are stopped and that no additional funds or task
      orders are added to Contract No. J051A20206. In addition, since the lifetime
      contract “not to exceed” maximum has been exceeded, we recommend the 1-year
      option not be exercised.

      Background:

      On June 3, 2005, ETA contacted SBA concerning its requirement for a potential
      acquisition under Section 8(a) of the SBA Act. According to ETA’s request, it
      contemplated an indefinite-quantity type contract, not to exceed $3 million. The period
                                         Page 2


of performance was 12 months from the date of contract execution, plus two 1-year
options at the discretion of the Government. ETA requested authority to negotiate with
TCE in accordance with streamlined 8(a) contracting procedures outlined in the
partnership agreement between SBA and DOL. The Statement of Work attached to
ETA’s request outlines “tasks for a twelve-month contract to assist Job Corps in
supporting students with disabilities in three areas. . . .”

In response to ETA’s request, on June 20, 2005, SBA accepted the requirement to “assist
Job Corps in supporting students with disabilities in three areas,” with TCE. The value of
the procurement was not to exceed $3 million, inclusive of all options. SBA determined
that TCE had the requisite capabilities to satisfactorily perform the work. SBA
authorized ETA to negotiate and contract directly with TCE, as specified in the
partnership agreement. In addition, ETA was required to send an executed copy of the
contract award package to SBA within 10 days of final signature.

Results:

As a result of our review of the ETA official contract file of the TCE procurement action
and interviews with SBA officials and ETA contracting officials, we have determined the
following:

       – The base year value of the TCE contract, through Modification No. 8, dated
         May 4, 2006, is $3,702,284. This is in excess of the SBA approval, and in
         violation of SBA regulations at 13 CFR 124.506(a), which limit all non-
         manufacturing contracts to $3 million, including all options.
       – Through February 28, 2006, TCE had performed 25 percent of the work with
         its own staff. 13 CFR 125.6 requires that the contractor “perform at least 50
         percent of the cost of the contract incurred for personnel with its own
         employees.”
       – The solicitation package that ETA submitted, and SBA approved, was limited
         to tasks in the Job Corps program. However, the contract Statement of Work
         with TCE provides for general tasks, which allows ETA to issue task orders
         for programs throughout ETA, including Job Corps (which was part of ETA at
         the time), Foreign Labor Certification, Workforce Investment, and
         Performance and Technology.
       – There is no evidence in ETA or SBA files that ETA forwarded copies of the
         contract or modifications to SBA. The partnership agreement provides that
         failure to do so could result in SBA’s suspension or rescission of the
         partnership agreement for all of DOL.

Recommendation:

We strongly recommend that you take immediate action to ensure all pending contract
modifications to TCE are stopped and that no additional funds or task orders are added to
Contract No. J051A20206. In addition, since the lifetime contract “not to exceed”
maximum has been exceeded, we recommend the 1-year option not be exercised.
                                          Page 3



Conclusion:

The results reported herein are based on our work to date. Field work is continuing and
we will report further in a separate report when our work is completed.

Due to the seriousness of the issues identified, we request that you take immediate action
and respond to this report within 5 working days on actions taken.

If you have any questions regarding the report’s information, please contact me at
693-5170.

cc:    Emily Stover DeRocco
       Assistant Secretary for
        Employment and Training

       Patrick Pizzella
       Assistant Secretary for
        Administration and Management

       Stanley Fujii
       Assistant District Director, SBA 8(a)
        Business Development

       Keith Bond, Contracting Officer

       Chari Magruder, Contracting Officer
